                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 110090046                                                                    Page 1 of 1



          We conducted an investigation to determine whether an NSF grantee falsely charged salary
          expenses to an NSF award.1 The evidence collected during our investigation did not substantiate
          that the company charged false salary charges to the NSF award. However, OIG did determine
          the company failed to comply with NSF SBIR grant conditions regarding use of funds and had
          an excess ofunreported award funds of$7,328.34.

          We informed the company of our conclusions and the company refunded $7,328.34 to NSF.
          Accordingly, this investigation is closed.




NSF OJG Fonn 2 (11 /02)
